HHS/OIG, Audit -"Audit of Kentucky's Title IV-E Administrative Costs,"(A-04-06-03505)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit
of Kentucky's Title IV-E Administrative Costs," (A-04-06-03505)
April 6, 2006
Complete
Text of Report is available in PDF format (549 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the State agency equitably allocated
administrative costs to the Title IV-E program from April 1, 2001, through March 31, 2003.  The
State agency undermined the statistical validity of the random moment study (RMS) by altering
the random moment for employees with nontraditional work schedules and adding unapproved
positions that may have skewed the results of the RMS, resulting in either an understated
or overstated percentage of time charged to Title IV-E activities.  These conditions
occurred because the State agency failed to design an RMS that complied with Federal guidelines
and statistical sampling standards.  As a result, the State agency may not have equitably
allocated $49.1 million ($24.5 million Federal share) in administrative costs to the Title
IV-E program.
We recommended that the State agency continue to work with the Department
of Health and Human Services, Division of Cost Allocation to ensure that the time study methodology
equitably allocates costs to the benefiting programs.  The State agency agreed with
our recommendations.